NO.

In the

Supreme Court of tfje fHmteb States:
In RE: DAVID A GOLDEN (G.),
Petitioner,

PROOF OF SERVICE
I, David Golden, do declare that on this date, July 6th, 2020, as required by
Supreme Court Rule 29 I have served THREE COPIES of the enclosed PETITION
FOR EXTRAORDINARY WRIT (Mandamus, Prohibition, and Quo Warranto) &
APPENDICES on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third party commercial carrier
for delivery within 3 calendar days.

The names and addresses of those served are as follows:
Bob Ferguson
Washington State Attorney General
1125 Washington St. SE, PO BOX 40100
OLYMPIA, WA 98504-0100

Noel Francisco
Solicitor General, Room 5616
US DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVE, NW
WASHINGTON, DC 20530-0001

Ashley Burns
US Attorneyz’ Office
700 Stewart St. Suite 5220
Seattle, WA 98101

District Judge Ronald Leighton
US Courthouse Room 3100
1717 Pacific AVE
Tacoma, WA 98402-3200

Ninth Circuit Ct. of Appeals
Chief Circuit Judge Sidney Thomas
95 77™ STREET
SAN FRANCISCO, CA 94103

William P. Barr
US Attorneyz Office
950 Pennsylvania AVE NW
Washington, DC 20530

Brian Moran
US Attomeyz’ Office
700 Stewart St. Suite 5220
Seattle, WA 98101
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 6th, 2020.

David Golden
3459 US 75 AVE
Hull, IA 51239

